           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   THE EFFECTIVENESS OF POLICIES
       AND PROCEDURES USED
     TO IDENTIFY INCARCERATED
      REPRESENTATIVE PAYEES

  September 2004    A-02-04-14031




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   September 16, 2004                                                               Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Effectiveness of Policies and Procedures Used to Identify Incarcerated
        Representative Payees (A-02-04-14031)


        OBJECTIVE
        The objective of our review was to determine the effectiveness of policies and
        procedures used to identify incarcerated representative payees.

        BACKGROUND

        The Social Security Administration (SSA) has polices and procedures in place that
        address the suitability of incarcerated representative payees. The Program Operations
        Manual System (POMS) states that an individual who is currently incarcerated is most
        likely not in a position to serve, or continue to serve, as a representative payee.1
        Additionally, in March 2004, President Bush signed the Social Security Protection Act of
        2004,2 which when implemented, will authorize SSA to disqualify an individual from
        serving as a representative payee if he or she has been convicted of an offense
        resulting in more than 1 year of imprisonment. This provision will become effective on
        April 1, 2005.

        In an effort to identify representative payees who are incarcerated, the Representative
        Payee System (RPS) generates computer alerts when the Prisoner Update Processing
        System (PUPS) data is matched with RPS. When such an alert is received, POMS
        instructs staff to check PUPS, RPS, the Master Beneficiary Record and the
        Supplemental Security Record to verify prisoner information and whether the individual
        is serving as a representative payee. Further, POMS requires staff to review and
        determine the suitability of the representative payee and document a decision on the
        Relationship Special Text (RLST) screen in RPS.3

        1
            SSA, POMS, GN 00502.133.
        2
            Pub. L. No. 108-203, § 103.
        3
            SSA, POMS, GN 00502.133.
Page-2 The Commissioner


SSA conducted nine periodic matches of the PUPS and the RPS from July 1999 to
February 2003. The PUPS contains information on incarcerated individuals including
the dates of incarceration, conviction, and release. The data matches allowed SSA to
identify representative payees that were incarcerated at the time of the match. Field
offices were asked to investigate each case and take appropriate action. Effective
January 31, 2003, prisoner information received and verified by SSA was compared to
the RPS on a daily basis.

RESULTS OF REVIEW
We found that SSA personnel were not effectively implementing policies and
procedures established to identify incarcerated representative payees. Based on our
review of a sample of 200 representative payees identified in the PUPS system as
being incarcerated, we estimated that there were approximately 8,809 representative
payees who were incarcerated as of December 2003. We estimated that these
representative payees were responsible for managing at least $52.2 million on behalf of
the beneficiaries they represented while they were incarcerated. Further, if these
incarcerated individuals continued serving as representative payees, we projected that
they would manage at least $37.1 million of Supplemental Security Income and Old
Age, Survivors, and Disability Insurance payments during calendar year 2004.

INCARCERATED REPRESENTATIVE PAYEES

From a statistical sample of 200 cases, we identified 27 incarcerated individuals who
served as representative payees for 36 beneficiaries other than themselves for 1 to
78 complete calendar months, for an average of 18.1 months. (See table below.)

      Number of Representative Payees                Number of Months Individuals
           (Total Number = 27)                      Served as Representative Payees
                                                           While Incarcerated
                          6                                       1 to 6
                          4                                      7 to 12
                          6                                     13 to 18
                          7                                     19 to 24
                          2                                     25 to 30
                          2                                     over 30*
      *One incarcerated individual served as representative payee for 43 months, while the
      other served for 78 months.

These representative payees were responsible for managing $262,927 of SSA funds
while incarcerated. In all 27 cases, we could not identify evidence that SSA conducted
reviews to determine the suitability of the incarcerated representative payee. There
Page-3 The Commissioner


was no evidence of completed suitability reviews in the RPS RLST screen as required
by POMS.4 Additionally, there was no evidence that PUPS alerts had been cleared on
the development worksheets in RPS.

In addition to the 27 cases, we found 5 other instances of incarcerated representative
payees with no evidence of suitability reviews on the RPS RLST screens. However,
there was evidence on the development worksheets in RPS that SSA completed
suitability reviews for these cases in response to computer generated alerts. Further,
we identified an additional 2 cases of incarcerated individuals serving as representative
payees at some point in the past. These cases were not current as of December 2003,
either because the incarcerated individual was no longer the representative payee, or
the beneficiary was no longer receiving benefits. There was no evidence of completed
suitability reviews within the RPS system for these cases.

As of July 8, 2004, 20 of the 27 individuals we identified as being incarcerated
representative payees still had a record in PUPS indicating incarceration and continued
to be listed as a representative payee in RPS. Suitability reviews for the 20 cases were
not performed and documented in accordance with the POMS.

RELEASE DATES IN PUPS

The sample of cases we reviewed only included representative payees who had
corresponding records in PUPS with blank “release date” fields, indicating that the
representative payees were not released from incarceration. However, we found
evidence outside of PUPS for 60 of the 200 cases reviewed that suggested the
representative payees had been released, but that SSA staff had not entered the
release date into PUPS. Evidence that suggested a release from incarceration included
information showing that they began to receive Supplemental Security Income
payments or became representative payees after the date of incarceration recorded in
PUPS.

The effective implementation of section 103 of the Social Security Protection Act
of 2004, which will authorize SSA to disqualify an individual from serving as a
representative payee if he or she has been convicted of an offense resulting in more
than 1 year of imprisonment, will depend in part on SSA having accurate and complete
information on the release dates of individuals applying to become or serving as
representative payees. This information will help SSA to determine the length of time
individuals were incarcerated. We estimated that about 19,576 of our population of
65,252 cases did not have complete information within the release date field in PUPS.




4
    Id.
Page-4 The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA funds released to incarcerated representative payees are at risk. Accordingly, the
Agency has established policies and procedures to identify incarcerated individuals and
to determine and document their suitability as representative payees. We found that
SSA personnel were not effectively implementing the policies and procedures.

Accordingly, we recommend that SSA:

   1. Ensure staff comply with existing policies to identify all representative payees
      that have been incarcerated.

   2. Complete and document suitability reviews in accordance with the POMS when it
      determines a representative payee has been incarcerated.

   3. Take measures to ensure that the PUPS “release date” information is complete.

AGENCY COMMENTS

The Agency agreed with all of our recommendations. SSA’s comments are included as
Appendix D.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
MBR          Master Beneficiary Record
MRPF         Master Representative Payee File
OIG          Office of the Inspector General
POMS         Program Operations Manual System
Pub. L. No   Public Law Number
PUPS         Prisoner Update Processing System
RLST         Relationship Special Text
RPS          Representative Payee System
SSA          Social Security Administration
SSR          Supplemental Security Record
                                                                        Appendix B

Scope and Methodology
We took the following steps to meet our objective:

•   Performed a data match of the Social Security Administration’s Master
    Representative Payee File (MRPF) of December 2003 and Prisoner Update
    Processing System (PUPS) of the same date. We found 109,467 records of
    individuals listed in both systems. We extracted records with a blank PUPS “release
    date” to limit our population to 65,252 potential currently incarcerated representative
    payees, as of December 2003.

•   Selected a random sample of 200 cases from the population of 65,252 cases.

•   Obtained queries from the Prisoner Update Processing System (PUPS), Master
    Beneficiary Record (MBR), Supplemental Security Record (SSR), and
    Representative Payee System (RPS) for our 200 sample cases.

•   Verified blank release date in PUPS and reviewed text messages for indication of
    release.

•   Reviewed incarcerated individual’s MBR and SSR records for indication of release.

•   Determined in RPS incarcerated individual’s status as payee, dates of
    representation, and number and identity of beneficiaries.

•   Determined in RPS evidence of suitability review results entered into RLST screen.

•   Confirmed payee identity and dates as payee in the beneficiaries’ MBR and SSR
    records.

•   For cases meeting our criteria, calculated actual payments made to beneficiary
    during period of representation by incarcerated payee, using Payment History
    Update System and Supplemental Security Income records.

•   For cases meeting our criteria, reviewed in RPS, available development worksheets
    for evidence of a PUPS alert having been worked by field office staff.

•   For cases meeting our criteria, determined amount of funds for which payee was
    responsible for December 2003.




                                            B-1
•   Queried the PUPS and RPS for current release dates, payee status, and
    documentation of suitability reviews having been performed as of July 8, 2004.

•   Queried in RPS, available development worksheets for evidence of a PUPS alert
    having been worked by field office staff, as of July 8, 2004.

We did not assess the suitability of the incarcerated representative payees identified
during our audit or conduct reviews of their activities as representative payees to
determine whether they misused Social Security benefits.

We did not specifically test to determine if computer alerts identifying the possibility of
an incarcerated individual serving as representative payee were generated and not
worked by SSA staff or simply not generated. We did find evidence in five cases that
alerts were generated and worked. We also found some evidence of alerts generated
for three cases that were not worked by staff.

We determined the computer processed data from MBR, SSR, RPS, MRPF, and PUPS
to be sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objective. As discussed in the body of this report, we
found that the “release date” field in the PUPS was incomplete. We were able to rely on
data from other SSA systems to provide us with an indication of whether an
incarcerated representative payee was released.

We conducted our field work in the New York Office of Audit between March and April
2004. The entities audited were the Office of Disability and Supplemental Security
Income Systems under the Deputy Commissioner for Systems and SSA’s field offices
under the Deputy Commissioner for Operations. Our audit was performed in
accordance with generally accepted government auditing standards.




                                             B-2
                                                                       Appendix C

Sampling Methodology and Results
To complete our objective, we performed a data match of the Social Security
Administration’s Master Representative Payee File of December 2003 and Prisoner
Update Processing System (PUPS) of the same date. We found 109,467 records of
individuals listed in both systems. We extracted records with a blank PUPS “release
date” to limit our population to 65,252 potentially incarcerated representative payees, as
of December 2003. We selected a random sample of 200 cases to review.

We found 27 cases of incarcerated individuals serving as representative payees as of
December 2003. These representative payees were responsible for managing
$262,927 of SSA funds while incarcerated. We estimated our results for the population
and the results of our estimation are detailed in the table on the next page.




                                           C-1
                         Sample Results, Projections and Estimates

Population size                                                              65,252
Sample size                                                                     200

Sampled cases where incarcerated individuals served as
representative payee to others                                                   27
Projection of cases (Point Estimate)                                          8,809
Projection lower limit                                                        6,335
Projection upper limit                                                       11,827

Amount of funds for which 27 representative payees were
responsible for 36 beneficiaries                                          $262,927
Projection of payment amount for which currently incarcerated
representative payees have been responsible. (Point Estimate)           $85,782,475
Projection lower limit                                                  $52,216,659
Projection upper limit                                                 $119,348,291

Number of cases for which an indication of release was evident,
although the release date field in PUPS was blank                               60
Projection of cases for which release date field is not updated
(Point Estimate)                                                            19,576
Projection lower limit                                                      16,103
Projection upper limit                                                      23,341

Amount of funds for which 27 representative payees were
responsible for 36 beneficiaries in December 2003                          $14,417
Projection of funds for which incarcerated representative payees
were responsible in December 2003 (Point Estimate)                       $4,703,527
Projection lower limit                                                   $3,092,919
Projection upper limit                                                   $6,314,136
12 month estimate of funds for which incarcerated representative
payees will be responsible based on projected lower limit for
December 2003                                                           $37,115,028
Note: All projections calculated at the 90-percent confidence level.




                                                   C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM                                                                                34077-24-1227


Date:     August 20, 2004                                                         Refer To: S1J-3

To:       Patrick P. O’Carroll, Jr.
          Acting Inspector General

From:     Larry W. Dye      /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, “The Effectiveness of Policies and Procedures
          Used to Identify Incarcerated Representative Payees” (A-02-04-14031)--INFORMATION


          We appreciate the OIG's efforts in conducting this review. Our comments on the report content
          and recommendations are attached.

          Please let us know if we can be of further assistance. Questions can be referred to Candace
          Skurnik, Director of the Audit Management and Liaison Staff, at extension 54636. Staff questions
          can be referred to Trudy Williams at extension 50380.

          Attachment:
          SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE EFFECTIVENESS OF POLICIES AND PROCEDURES USED TO
IDENTIFY INCARCERATED REPRESENTATIVE PAYEES” (A-02-04-14031)

Thank you for the opportunity to comment on the subject draft report. Our response to the
specific recommendations is provided below.

Recommendation 1
Social Security Administration (SSA) should ensure that SSA staff complies with existing
policies to identify all representative payees (Rep Payees) that have been incarcerated.
Comment

We agree and will work to develop a reminder to be issued to field office (FO) staff.
The reminder will provide complete instructions on how to handle incarcerated Rep Payees. We
expect to issue the reminder by September 30, 2004. Additionally, we will review our existing
Program Operations Manual System (POMS) instructions to determine if improvements can be
made.

Recommendation 2

SSA should complete and document suitability reviews in accordance with the POMS when it
determines a Rep Payee has been incarcerated.
Comment

We agree. See response to recommendation 1 above.

Recommendation 3
SSA should take measures to ensure that the Prisoner Update Processing System (PUPS)
“release date” information is complete.
Comment

We agree. The POMS procedures in GN 02607.860 and SI 02310.093 provide specific
instructions for the technician to post release dates before they reinstate benefits to beneficiaries
or recipients. We will cite these procedures in the reminder mentioned above. Also, on July 30,
2004, we updated POMS GN00502.133 to instruct technicians to update PUPS for Rep Payees
when appropriate.

[SSA also provided technical comments which have been addressed in this report, as
needed.]




                                                 D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Office of Audit, (212) 264-5295

Acknowledgments

In addition to those named above:

   Denise Molloy, Program Analyst-in-Charge

   Abraham Pierre, Auditor

   Christine Hauss, Program Analyst

   Christine Chen, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-02-04-14031.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
